                                                                            JUL 01 2014
Office ofInspector General




MEMORANDUM

TO:           Reginald W. Mitchell, Chief Financial Officer

FROM:         Nathan Lokos, Assistant Inspector General for Audit Isl

SUBJECT:      Other Matters Identified During the Office of Inspector General's Evaluation of
              USAID's Compliance With the Improper Payments Elimination and Recovery Act of
              2010

We have evaluated USAID's compliance with the Improper Payments Elimination and Recovery
Act of 201 Ofor fiscal year 2013 and have determined USAID complied in all material respects with
the act's requirements.

During our evaluation, we noted certain matters involving USAID's internal controls and
reporting that we present in this memo for your consideration. The comments and suggestions,
all of which have been discussed with the appropriate members of USAID's management, are
intended to improve USAID's internal controls or result in other operating efficiencies.

We appreciate the cooperation and courtesies that your staff extended to the Office of Inspector
General during the audit. If you have questions concerning this memo or would like to discuss
its contents, please contact Rohit Chowbay at 202-712-1317.




Attachment
Appeals of Questioned Costs

Although USAID established a deadline for grantees and contractors to appeal sustained
questioned costs, it does not recover these questioned costs within a reasonable time
of issuing the agreement officer's decision. As of September 30, 2013, USAID had
approximately $6.4 million in outstanding sustained questioned costs on appeal, including $5.2
million outstanding since 2009. Title 22 of the Code of Federal Regulations, Part 226.90, and
USAID guidance (Automated Directives System 303) permit the grantees and contractors to
appeal the agreement officer's decision and submit all relevant, material evidence within
30 days of receipt of the agreement officer's decision. Although USAID classifies the sustained
questioned costs as legitimate debts to the agency and submits bills of collection to grantees
and contractors, it suspends collection efforts until the appeal process has been completed and
the final debt determination letter issued. Because this process takes an inordinate amount of
time, it prevents the Agency from collecting outstanding questioned costs in a timely
manner, and delays it in classifying and reporting these sustained questioned costs as improper
payments.

While this deficiency does not affect the Agency's compliance with the Improper Payments
Elimination and Recovery Act, the process should be improved to enhance the recovery of
sustained questioned costs. In 2013, USAID stated, "lf too many risks are identified during a
review of the audit report for a potential grantee, an award may not be made until the potential
grantee has implemented sufficient corrective actions." 1 However, USAID continues to provide
new funding for those grantees that have outstanding questioned costs on appeal.

Therefore, we suggest that:

       (1) USA1D's Office of Acquisition and Assistance enforce the requirements of ADS 303 	t o
        ensure that grantees and contractors submit all relevant and material evidence within the
        thirty days specified by the ADS and that the Assistance Executive resolves all appealed
        questioned costs in a reasonable time.

       (2) USAID consider suspending new funding to those grantees and contractors with
       significant outstanding sustained questioned costs until sufficient corrective action has been
       implemented.

Standard Language in USAID's Agency
Financial Report

The section titled "Improper Payments Reporting Details" in USAID's fiscal year 2013 Agency
Financial Report does not include all the required information. Specifically, the risk assessment
       1
section does not list certain indicators, such as internally reported funds control violations and
questioned costs appealed by contractors/grantees, as potential risks factors. OMB Circular A­
123, Appendix C, requires agencies to take into account risk factors likely to contribute to
improper payments. Although not all funds control violations and questioned costs without final
determination can be classified as improper payments, they should be included in the risk
factors because USAtD's final determination may affect the overall reporting of improper
payments.


1
    "I. Risk Assessment," USAID Agency Financial Report, Fiscal Year 2013, p. 150.
Therefore, we suggest that USAID update the standard language for the Agency Financial
Repo~ to Include the two significant risk factors regarding improper payments.
